NOS. 20-429, 20-454, 20-539
IN THE

Supreme Court of the United States
AMERICAN MEDICAL ASSOCIATION, ET AL.,
Petitioners,
v.
NORRIS COCHRAN, ACTING SECRETARY OF HEALTH AND HUMAN SERVICES, ET AL.,
Respondents.
On Writ of Certiorari to the United States Court of Appeals
for the Ninth Circuit
OREGON, ET AL.,
v.

Petitioners,
NORRIS COCHRAN, ACTING SECRETARY OF HEALTH AND HUMAN SERVICES, ET AL.,
Respondents.
On Writ of Certiorari to the United States Court of Appeals
for the Ninth Circuit
NORRIS COCHRAN, ACTING SECRETARY OF HEALTH AND HUMAN SERVICES, ET AL.,
Petitioners,
v.
MAYOR AND CITY COUNCIL OF BALTIMORE,
Respondents.
On Writ of Certiorari to the United States Court of Appeals
for the Fourth Circuit
CERTIFICATE OF COMPLIANCE

